DOE/IG-0523




         AUDIT
        REPORT                        SANDIA NATIONAL
                                 LABORATORIES PERSONAL
                                PROPERTY ACCOUNTABILITY




                                         SEPTEMBER 2001




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                      U. S. DEPARTMENT OF ENERGY
                                            Washington, DC 20585

                                               September 17, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Audit Report on "Sandia National
                        Laboratories Personal Property Accountability"


BACKGROUND

The Department of Energy (Department) requires its contractors to track accountable property from
acquisition to final disposition. In this regard, Sandia National Laboratories (Sandia) is responsible for
significant quantities of Department-owned personal property. This personal property, which is defined as
property of any kind, excluding real estate and permanent fixtures, is located at various sites including
overseas locations. To track property, Sandia uses a Fixed Assets Database, which was designed to be a
management tool to account for Government property. A unique property control number is to be affixed to
each item and, once entered into the database, the property control number is the mechanism used to track
the location of each item through ultimate disposal. As of December 2000, the Sandia Database contained
about 53,000 items valued at approximately $1.1 billion.

For several years, the Office of Inspector General (OIG) has been reporting on significant deficiencies in
controls over Government property. In fact, the OIG's Special Report on Management Challenges at the
Department of Energy, dated November 2000, identified property controls and asset inventories as one of
the most serious challenges facing the Department today. The objective of this audit was to evaluate the
accuracy of Sandia's Fixed Assets Database.

RESULTS OF AUDIT

The audit disclosed that Sandia's Fixed Assets Database, a primary tool in the effort to ensure property
accountability, was not accurate. Specifically, we found that a significant number of personal property
items were not listed in the Database, and that property included in the Database could not always be
located. Using "reverse" sampling techniques, we found that about 20 percent of the items in our sample
were not included in the Database. Another sample, taken from a list of items inventoried by Sandia
during its FY 2000 inventory, showed that although Sandia officials had verified the existence of the items,
we could not find over 5 percent of the items sampled. Follow-up conversations with Sandia property
officials indicated that these items had not been physically verified during the laboratories' most recent
inventory.
                                                   -2-


n addition, we found that property coordinators were not effectively ensuring that the Database was
complete and up to date. In total, we estimated that the Database did not include between 6,100 and 19,500
property items. Based on these shortcomings, we concluded that the Database was not an effective tool in
managing Government property entrusted to Sandia.

MANAGEMENT REACTION

Management officials at the Albuquerque Operations Office (Albuquerque) concurred with the
recommendations in the report. Albuquerque issued a letter on July 6, 2001, that directed Sandia to re-
assess the property record system and institute appropriate improvements. Sandia was also directed to
perform a root-cause analysis to determine appropriate system enhancements that will ensure safeguarding
and controlling of Government property. Sandia will conduct a laboratory-wide wall-to-wall inventory in
FY 2002 to review Database accuracy.

Attachment
SANDIA NATIONAL LABORATORIES PERSONAL PROPERTY
ACCOUNTABILITY

TABLE OF
CONTENTS


               Overview

               Introduction and Objective ............................................... 1


               Conclusions and Observations ........................................ 1


               Accuracy Of Fixed Assets Database


               Details of Finding ............................................................ 3


               Recommendations and Comments ................................. 6


               Appendices


               Scope and Methodology.................................................. 9


               Past Audits .................................................................... 11


               Projection of Reverse Sample Results .......................... 12
Overview
INTRODUCTION      One of the management challenges facing the Department of Energy
AND OBJECTIVE     (DOE) today is controlling its property. Accordingly, Sandia National
                  Laboratories (Sandia) is responsible for the personal property it
                  acquires. Personal property is generally property of any kind,
                  excluding real estate and permanent fixtures. To meet its responsibility,
                  Sandia uses a Fixed Assets Database. Property meeting established
                  criteria is assigned a property control number (property tag) and is to be
                  included in the database. Property in the database is generally
                  segregated as sensitive (i.e., computers and cameras) or non-sensitive
                  (i.e., laboratory equipment). Once in the database, the location of each
                  item is to be tracked until ultimate disposal. The property in the
                  database is physically located at various sites, including overseas
                  locations. As of December 2000, the database contained about 53,000
                  items valued at approximately $1.1 billion.

                  To validate the accuracy of the database, Sandia uses a 4-year inventory
                  cycle that includes both wall-to-wall and statistical sampling
                  techniques. The last wall-to-wall inventory completed in Fiscal Year
                  (FY) 1999 indicated that Sandia was able to account for about 99
                  percent of its property in the database.

                  In prior Office of Inspector General (OIG) audits, concerns with
                  accurate recording of property have been reported at various locations
                  across DOE. Additionally, the OIG's Special Report on Management
                  Challenges at the Department of Energy found that asset inventories
                  and control over property were among the most serious challenges
                  facing DOE today. Thus, the objective of this audit was to determine if
                  Sandia's Fixed Assets Database was accurate.

CONCLUSIONS AND   Sandia's Fixed Assets Database was not accurate. All property required
OBSERVATIONS      to be included was not, and property that was listed could not always be
                  located. This occurred because the actions of property coordinators
                  were not effective in ensuring the database was complete or updated, as
                  necessary and inventory validation procedures used by Sandia were
                  questionable. As a result, we estimated that Sandia was not tracking
                  between 6,111 and 19,501 property items; thus, DOE cannot be assured
                  that inventories using information from the database were accurate.




Page 1                                                Introduction and Objective/
                                                      Conclusions and Observations
         The audit identified a material internal control weakness that
         management should consider when preparing its yearend assurance
         memorandum on internal controls.




                                       ______Signed)__________
                                       Office of Inspector General




Page 2                                    Conclusions and Observations
Accuracy Of Fixed Assets Database
Fixed Assets Database   The property database was not accurate. Property was not always
Not Accurate            included in the database and when it was included, it could not always
                        be located. For example, a reverse sample of 179 items located at
                        various sites showed that 35 items, or about 20 percent, were not
                        included in the database. The Sandia database excluded a $23,000
                        cleaning machine, a $10,000 television, and a $9,000 printer. It also
                        excluded some sensitive items such as a tagged computer and an
                        untagged camera that were comparable to items included in the
                        database. Using statistical sampling procedures we projected that the
                        database excluded between 6,111 and 19,501 items that met the
                        tracking requirement.

                        We discussed our findings with Sandia property officials who disagreed
                        with some of our examples. Sandia claimed that these examples did not
                        meet the criteria established for inclusion in the database and
                        challenged whether the cleaning machine should have been included.
                        We reexamined this issue and found that the items did meet the
                        database criteria, and at least 11 other similar cleaning machines were
                        being tracked in the database. Sandia agreed that the other items
                        identified in the sample should have been tracked in the database.

                        In addition, property that was included in the database could not always
                        be found. A sample of 77 items was selected to verify the accuracy of
                        property included in the database. The sample was based on a list of
                        1,805 items that had been inventoried by Sandia personnel and recorded
                        as found during their FY 2000 statistical sample inventory. Although
                        Sandia officials had verified the existence of all 77 items, we could not
                        find 4, or 5.2 percent, of the items sampled. The missing property
                        included a $7,000 workstation and a $6,000 oscilloscope. Follow-up
                        conversations with Sandia property officials indicated that the 4
                        inventoried items had not been physically verified.

Accounting For          Provisions within the Department of Energy's Acquisition Regulation
Government Property     Part 970 and Property Management Regulation (DPMR) Chapter 109
                        require contractors, such as Sandia, to track accountable property from
                        acquisition to final disposition. The property records are to record the
                        property's classification (sensitive or non-sensitive), serial number,
                        property number, manufacturer, model, location, and final disposition
                        information. Regular inventories are used to ensure the accuracy of the
                        database. DPMR 109 requires the actual verification of the location
                        and existence of property. Procedures that do not include actual
                        verification do not meet this requirement.




Page 3                                                                     Details of Finding
                          Sandia's management and operating contract reiterates and defines
                          many of these requirements. Sandia's Property/Assets Management
                          Process Manual (Property Manual) requires that sensitive property
                          (generally firearms regardless of cost, and computers, cameras, and
                          portable tools costing $1,000 or greater) and non-sensitive property
                          (items $5,000 or greater, such as laboratory equipment and printers) be
                          input into the database and tracked with a unique property number.

                          When inventories are conducted, property numbers are to be scanned
                          and compared to the database. Verification memos are to be used when
                          property cannot be inventoried by scanning. These memos are to be
                          prepared and signed by persons who are knowledgeable of the item's
                          location and can attest to the property's existence. Additionally,
                          Sandia's FY 2000 inventory procedures allowed for the use of
                          verification memos during the statistical sample inventory.

                          Property coordinators are assigned within various organizations at
                          Sandia to act as the focal points of contact for property related issues.
                          Many of the approximately 500 coordinators have collateral duties that
                          include maintaining and updating the database records as well as
                          assisting with inventories. These duties are described throughout the
                          Property Manual.

Effectiveness Of          The actions of some property coordinators were not effective in
Property Accountability   ensuring the database was complete or updated, as necessary. Further,
Controls                  inventory validation procedures used by Sandia were questionable.
                          Both of these problems were exacerbated by the fact that there were no
                          performance measures related to the accuracy of the database.1

                                             Property Coordinators Responsibilities

                          Property coordinators did not always ensure that newly purchased
                          property was tagged and entered into the database. Of the 179 items we
                          attempted to trace to the database, 12 (about 7 percent) had not been
                          assigned property tags, even though the items were assets that met the
                          criteria for inclusion in the database. Sandia property management
                          personnel acknowledged that they were not informed of all new
                          property that needed to be tagged or entered in the database.




                          __________________________
                          1
                           Sandia does not have a performance-based contract. Sandia is paid a fixed fee;
                          therefore, the absence of performance measures does not have any impact on the fee.


Page 4                                                                               Details of Finding
         Property coordinators also were not ensuring that database fields were
         complete. Of the 53,000 items in the database, about 4,400 did not
         have serial numbers recorded. Without a property tag the only way to
         positively identify property is with serial numbers.

         In addition, property coordinators did not always update the database
         when changes occurred. For example, in one organization the property
         coordinator did not change the location of 19 off-site property items
         until 15 months after the transfer took place--and then only after the
         OIG inquired about the property. Further, we sampled 30 property
         items reported to Sandia security as stolen or missing from FY 1998-
         2000. As of December 2000, however, only 7 were noted in the
         database as missing or stolen; the others were reported as still in use.

         Finally, neither Sandia nor Albuquerque Operations Office
         (Albuquerque) ensured that property coordinators were familiar with
         their duties. Sandia officials stated that many of the approximately 500
         property coordinators had these responsibilities as a collateral duty.
         Further, within the Property Manual, the responsibilities of property
         coordinators were not consolidated in one location.

                              Current Inventory Procedures

         Sandia's inventory validation procedures used in FY 2000 were of
         questionable value. Sandia did not randomly select items for tracing
         back to the database (reverse sampling) to ensure property was
         accurately recorded. Reverse sampling is a business tool used to ensure
         accuracy of the record system. In addition, Sandia relied on the use of
         verification memos as an attestation of a property item's existence.
         However, these memos were accepted without ensuring that memos
         were properly signed. Further, Sandia judgmentally selected on-site
         memos for validation but excluded those from off-site.

         Of the 138 memos received in the FY 2000 inventory, 102 were not
         signed by the employee to whom the property was assigned--the person
         that should be most knowledgeable regarding status of the item in
         question. For 5 of the 138 memos, there were no signatures as required.
         For example, memos received from Sandia personnel located in
         Livermore, California, during the FY 1999 and 2000 inventories stated
         that a $21,000 turbo pump was located at the Los Alamos National
         Laboratory (Los Alamos). Sandia accepted these memos without any
         follow-up to substantiate a specific location. However, the auditors
         discovered that the pump was damaged and disposed of sometime



Page 5                                                      Details of Finding
                  before the FY 1999 and 2000 inventories. Since this item was off-site,
                  it was exempt from Sandia's validation process. However, almost half
                  of the 138 memos received in the FY 2000 inventory were for off-site
                  property.

                  Memos that were selected for validation were done so judgmentally,
                  instead of randomly. Consequently, it appeared that Sandia went
                  through the mechanics of validating its inventory, but the validation
                  process was flawed due to a lack of objectivity. Therefore, DOE cannot
                  be assured that the inventories were accurate.

                  Further, we assessed the performance measures established under The
                  Government Performance and Results Act of 1993 related to the
                  accuracy of Sandia's Fixed Assets Database. Although performance
                  measures related to conducting cost-effective inventories of equipment
                  and sensitive property were found, there were no performance measures
                  that specifically addressed the accuracy of the database.

                  After discussing both of the above matters with the auditors, property
                  management officials took some corrective action including requiring
                  documentation for off-site property during the FY 2001 inventory.
                  Property coordinators were also informed of the need to notify property
                  management when trackable items without property tags were found.

Establishing      The Fixed Assets Database was designed to be a key management tool
Accountability    in accounting for Government property held for use by Sandia.
                  However, the database did not account for all property and, therefore,
                  could not be relied upon. In addition, the property, including sensitive
                  items, that was not accounted for could lead to undetected losses.

                  Our statistical determination of 6,111 to 19,501 items acquired, but not
                  included in the database, could lead to a significant understatement of
                  Sandia's assets. The database currently tracks about 53,000 items
                  valued at approximately $1.1 billion. Although there is no statistical
                  methodology to assign a dollar value to the unrecorded items, there is
                  every reason to believe the value of these items is worth millions of
                  dollars.
RECOMMENDATIONS
                  We recommend that the Manager, Albuquerque Operations Office
                  require Sandia National Laboratories to:

                  1. Consolidate all the duties and responsibilities of property
                     coordinators in a single document. This document should specify
                     that the duties include (a) completing all database identifier fields,


Page 6                                             Recommendations and Comments
                such as descriptions, serial and model numbers and (b) updating and
                informing property management on the status of lost or stolen
                property.

             2. Develop an action plan to ensure the database is accurate.

             3. Develop an inventory methodology that includes:

                •   The use of reverse samples--the tracing of property back to the
                    database.

                •   An objective methodology to validate all verification memos.
                    The methodology should include validation of memos for off-
                    site property on a rotating basis.

             4. Develop performance measures to ensure the accuracy of the Fixed
                Assets Database.

MANAGEMENT   Albuquerque concurred with the recommendations in the report.
COMMENTS
             Recommendation 1. Sandia will update existing procedures to
             delineate the duties and responsibilities of property coordinators in a
             specific section. The procedures will address record data fields and a
             process to better inform property management on status of lost/stolen
             property. Target completion date is January 31, 2002.

             Recommendation 2. Albuquerque stated that Sandia would conduct a
             wall-to-wall inventory of equipment and sensitive items in FY 2002.
             Sandia's inventory validation will include record-to-floor and floor-to-
             record sampling to review database accuracy. Albuquerque will also
             review and validate database accuracy as part of the FY 2002 Business
             Management Oversight Review (Oversight Review). This action will
             be completed by September 30, 2002.

             Recommendation 3. Albuquerque stated that Sandia Property
             Management has historically conducted reverse sampling and will
             continue to do so. Further, Albuquerque stated that it had already
             identified a concern with verification memos in its FY 2000 Oversight
             Review and Sandia had implemented corrective action during the FY
             2001 inventory. Thus, both actions were considered complete.




Page 7                                       Recommendations and Comments
                   Recommendation 4. Albuquerque stated that Sandia currently has an
                   "unscored" measure in the FY 2001 Oversight Review that was
                   negotiated with Albuquerque prior to the OIG audit to review the Fixed
                   Assets Database accuracy. Sandia will continue to include Fixed Assets
                   Database accuracy in future self-assessments. Albuquerque will elevate
                   the measure to a "scored" measure in the FY 2002 Oversight Review.
                   The FY 2002 measure will be negotiated by September 30, 2001.

                   Albuquerque issued a letter on July 6, 2001, that directed Sandia to
                   re-assess the property record system and institute appropriate
                   improvements. Albuquerque also directed Sandia to perform a root-
                   cause analysis to determine appropriate system enhancements that will
                   ensure safeguarding and controlling of Government-owned property.
                   Albuquerque will consider the property system improvements when
                   making its FY 2001 evaluation of Sandia's business management
                   performance. These improvements will be factored into Albuquerque's
                   determination as to whether or not Sandia's personal property
                   management system will be approved for the current contract cycle. In
                   its response to this letter, Sandia management stated it would perform
                   the root-cause analysis by the end of the current fiscal year to determine
                   system enhancements. Sandia management also stated that it
                   considered this an important matter and will take those actions
                   necessary to ensure the maintenance of an approved personal property
                   management system.

AUDITOR COMMENTS   Management was fully responsive to the recommendations. With
                   respect to recommendation 3, we found no evidence that Sandia used
                   reverse sampling or implemented verification memo validation
                   procedures for off-site property prior to the start of the audit. However,
                   we are pleased that both procedures are now being implemented and
                   believe that the recommendation should remain open until the
                   implementation is complete. Further, we commend Albuquerque on its
                   prompt actions to require Sandia to increase its database accuracy.




Page 8                                             Recommendations and Comments
Appendix 1
SCOPE         The audit was performed between November 2000 and June 2001, at
              Albuquerque and Sandia sites in New Mexico, Texas, Colorado,
              Nevada, and California. The audit examined records related to both the
              FY 1999 wall-to-wall and the FY 2000 statistical sample inventories.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Reviewed applicable public laws, DOE orders, other guidance
                      and related correspondence, and contracts;

                  •   Reviewed prior OIG and General Accounting Office reports;

                  •   Reviewed compliance with the Government Performance and
                      Results Act of 1993;

                  •   Performed a judgmental sample of 77 property items
                      inventoried in the FY 2000 statistical sample inventory--74
                      were taken from verification memos and 3 from items which
                      had been scanned;

                  •   Selected 179 personal property items at random for tracing
                      back to the Fixed Assets Database;

                  •   Analyzed the contents of the Fixed Assets Database related to
                      personal property items;

                  •   Interviewed personnel at Albuquerque, Sandia, and other DOE
                      national laboratories;

                  •   Reviewed verification memos and supporting documentation
                      obtained during the FY 1999 and 2000 inventories;

                  •   Consulted several statisticians--one employed by the George
                      Washington University and the U.S. Bureau of Census, another
                      at the New Mexico State University, a third from the University
                      of New Mexico, and a fourth from the Los Alamos National
                      Laboratory; and,

                  •   Reviewed literature related to capture-recapture population
                      estimation methodology (capture-recapture).




Page 9                                                  Scope and Methodology
          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the objective of the audit. Accordingly,
          we assessed the significant internal controls related to the accuracy of
          Sandia's Fixed Assets Database. Because our review was limited, it
          would not necessarily have disclosed all internal control deficiencies
          that may have existed at the time of our audit. Due to the problems
          identified in this audit, we could not rely on computer processed data to
          conduct this audit. We held an exit conference with Albuquerque
          officials on August 16, 2001.




Page 10                                              Scope and Methodology
Appendix 2


                    PAST OFFICE OF INSPECTOR GENERAL AUDITS AND
                     REVIEWS RELATING TO PROPERTY MANAGEMENT



•   Special Report on Management Challenges at the Department of Energy (OIG Report DOE/IG-0491,
    November 2000). The report found that asset inventories and control over property were among the
    most serious challenges facing DOE today.

•   Personal Property at the Oak Ridge Operations Office and the Office of Scientific and Technical
    Information (OIG Report ER-B-98-07, April 1998). The report found that property was not
    adequately safeguarded and property records were inaccurate and incomplete.

•   Summary Report on the Department of Energy's Management of Personal Property (OIG Report
    DOE/IG-0344, March 1994). The report found continuing deficiencies in the approval of contractor
    property management systems; inventory management; as well as the proper identification, storage,
    and disposal of excess property.

•   Audit of Personal Property Management at Los Alamos National Laboratory (OIG Report
    DOE/IG-0338, December 1993). Los Alamos did not effectively protect inventory of Government-
    owned property with an acquisition cost of about $1 billion. Los Alamos did not account for
    $11.6 million of Government-owned property. In addition, the personal property database contained
    $22.2 million of incorrectly recorded property and $61.7 million of personal property that could not
    be inventoried.




Page 11                                                                                   Past Audits
Appendix 3


                        PROJECTION OF REVERSE SAMPLE RESULTS



We selected a reverse sample of property items from various Sandia locations. The items were traced to
the database using the property and serial numbers. Those items not in the database were counted as
errors.

Based on guidance received from four professional statisticians, we used the capture-recapture to project
the results of the reverse sample. In using capture-recapture, we established three assumptions (1) the
population is closed--there were no additions or subtractions during our sample, (2) tracked and
untracked property were equally likely to be found, and (3) all property numbers were recorded correctly.
Next we established the following parameters for our sample projection:

     • Number of personal property items in the database as of December 4, 2000 - 53,053.
     • Number of items in the reverse sample - 179.
     • Number of items traced to and not found in the database - 35.

Using the Chapman and Direct Sampling estimation methodologies, we estimated that there were 66,317
property items (both recorded and unrecorded). Further, we were able to estimate, with 95 percent
confidence, that the total number of items not recorded in the database ranges from 6,111 to 19,501. We
could not project the value of the unrecorded property using our statistical methodology. However, if we
conservatively assumed that each item was valued at $1,000 (the minimal amount for inclusion in the
inventory as a sensitive item), then the value of unrecorded property items would be between $6.1 and
$19.5 million.




Page 12                                                      Projection of Reverse Sample Results
                                                                      Report No.:DOE/IG-0523


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
